AUDIT OF NARA’S RESEARCHER REGISTRATION
      IDENTIFICATION CARD PROGRAM

           OIG Report No. 08-07

              April 24, 2008
                                                                            OIG Audit Report No. 08-07




EXECUTIVE SUMMARY

The National Archives and Records Administration (NARA) Office of the Inspector
General (OIG) performed an audit of NARA’s Researcher Registration Identification
Card Program. NARA uses the researcher registration process at NARA facilities with
research rooms for a number of purposes. This audit focused exclusively upon the use of
the card as a management control feature aimed at providing protection of archival
holdings by obtaining individual researcher identification data. Data typically collected
during the registration process includes the researcher’s driver’s license number and
current home address 1 . The objective of the audit was to determine whether the
management controls over the researcher registration and application program ensures
researcher information is accurately obtained, verified, and properly safeguarded.

We found NARA personnel responsible for registering researchers and those responsible
for managing the researcher registration program are aware of their responsibilities for
obtaining and recording researcher information as presented to them. This is done under
the assumption that photo identification presented by researchers is valid. Additionally,
we found sensitive, personal information obtained from researchers appears to be
properly handled and appropriately safeguarded.

However, we found an investment in a fully automated, integrated technology system
would greatly improve security and customer service aspects of the researcher
registration program. Currently such a system is used at Archives I and Archives II, but
none of the Presidential Libraries or Regional Records Centers has an automated system
for registering researchers. Additionally, NARA does not have uniform detailed internal
operating procedures for banning researchers that do not comply with established
research room rules of conduct. Finally, periodic monitoring of the researcher database
at Archives I and Archives II was not completed on a routine basis to detect and correct
errors in the system.

This report contains three recommendations for improvement to the Researcher
Registration Card Program. We believe this program is an important component of
NARA’s overall security management program aimed at protecting and preserving
records entrusted to NARA. The recommendations in this report, upon adoption, will
strengthen and enhance management controls over the Researcher Registration
Identification Card Program.




1
  While NARA’s Researcher Registration Identification Card Program has some security features it is not
relied upon as a complete security system. At present, NARA’s Researcher Registration Identification
Program does not include procedures to verify the authenticity of the researcher’s driver’s license.

                                                Page 1
                             National Archives and Records Administration
                                                                         OIG Audit Report No. 08-07


BACKGROUND

NARA’s mission statement says, “The National Archives and Records Administration
serves American democracy by safeguarding and preserving the records of our
Government…” and “we ensure continuing access to the essential documentation of the
rights of American citizens and the actions of their government.” It is NARA’s vision for
all Americans to be inspired to explore the records of their country, the stories of our
nation and our people as told in the records and artifacts cared for in NARA facilities
around the country. Yet, these two objectives put NARA in a continuous tension of
providing and encouraging access while needing to protect and preserve our holdings.

The purpose of the researcher registration identification card program is to protect and
preserve the records of our Government by allowing appropriate access to those who (1)
provide simple identification data that will help NARA to recover/remedy missing or
damaged documents, and (2) take the time to review essential library rules necessary to
prevent damage to archival holdings.

Currently, NARA has a network of 35 research facilities nationwide managed by the
Office of Records Services—Washington, DC (NW); the Office of Regional Records
Services (NR); and the Office of Presidential Libraries (NL). Interim Guidance 1600-4
(dated January 14, 2002), by authority codified in 36 CFR 1254.4 and 1254.6, governs
research application and registration procedures with the stated purpose to strengthen
security measures and to ensure uniformity of the application process at all NARA
research rooms. Further, Interim Guidance 1600-4 requires the following key internal
control measures for all NARA facilities issuing researcher identification cards: (1)
appropriate photo identification documentation is required from all researchers; (2)
application forms are to be submitted in person; (3) temporary researcher identification
cards are not permitted; (4) information provided by the researcher is verified by NARA
research room personnel; and (5) researcher applications are to be properly maintained.

The researcher card program requires that all researchers wanting access to original
archival material at any NARA facility must complete the registration/ application
process. This is a simple process initiated by a researcher completing a researcher
application form. NARA research personnel are responsible for verifying data presented
on the researcher application; requesting and documenting the researcher’s photo
identification; issuing the researcher an identification card; and maintaining researcher
application data files. The researcher identification card is valid for one year and must be
presented prior to entrance to research rooms and when requesting archival material.

The registration process includes researcher orientation covering the procedures for
requesting and using historical documents. During the researcher orientation NARA
personnel present the researcher with information concerning the rules and procedures
they are expected to follow.




                                             Page 2
                          National Archives and Records Administration
                                                                        OIG Audit Report No. 08-07


OBJECTIVE, SCOPE, and METHODOLOGY

The objective of our audit was to determine whether the management controls over the
researcher registration and application program ensure researcher information is
accurately obtained, verified, and properly safeguarded according to NARA directives.
Specifically, we looked at management control procedures such as recording a
researcher’s driver license, current address, temporary lodging address, researcher card
expiration dates, non-issuance of temporary cards, and whether researchers were issued
cards over the phone. Finally, we reviewed procedures associated with the protection of
personal information and inquired where the personal identifiable information was stored.

To accomplish our audit objective we: (1) observed registration procedures at Archives
II in College Park, Maryland; (2) conducted in-person and phone interviews with staff
from the Office of Records Services (NW), the Office of Regional Records Services
(NR), and the Office of Presidential Libraries (NL)—these interviews were follow-up
interviews to a questionnaire sent to all NARA facilities with research rooms; and (3)
reviewed the researcher database for Archives I and Archives II maintained at Archives II
in College Park, Maryland.

While our audit fieldwork addressed whether management controls were in place to
ensure researcher data obtained was verified and accurate, we did not conduct any
verification testing regarding the validity of a researcher’s driver’s license as NARA does
not deem this system a complete security system.

We conducted this performance audit in accordance with generally accepted government
auditing standards (GAGAS) between March 2007 and September 2007. These standards
require we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                            Page 3
                         National Archives and Records Administration
                                                                        OIG Audit Report No. 08-07


Finding I: NARA Lacks an Integrated Researcher Database

NARA does not utilize a common, integrated technology application for processing,
producing, and storing researcher card applications at all NARA locations with research
rooms. This condition exists as a result of budget constraints. An automated, uniform
researcher processing program has been supported and proposed in the past by the Office
of Regional Records Services (NR) but was denied due to cost. Federal guidance
requires agencies to design and implement controls to protect assets. The lack of an
automated and uniform processing program, (1) negatively impacts NARA’s ability to
properly safeguard the records and artifacts entrusted to NARA; and (2) requires
researchers to repeat the application process at some NARA facilities.

Government Accountability Office (GAO) Standards for Internal Control in the Federal
Government assert management should design and implement internal controls to protect
its assets and an assessment of the risks the agency faces from both external and internal
sources be identified in accordance with agency objectives. NARA’s mission statement
clearly defines safeguarding and preserving the records of our Government as a
consistent agency objective. For museums and libraries maintaining valuable collections,
there is an increased risk of loss, theft and mutilation when sound internal control
procedures are not in place.

The audit found Archives I and Archives II have an automated system using IvisPlus and
Indentipass system software to (1) process researcher applications; (2) produce a plastic
photo researcher identification card; (3) maintain a database of all Archives I and
Archives II registered researchers along with information such as address and drivers
license number; (4) record dates of each researcher’s visits; and (5) verify if the
researcher has current, revoked or expired privilege at the badge reading station.
Researchers registering at either Archives I or Archives II must register only once and
have access to all other NARA facilities.

However, NARA’s field components, NR and NL do not have this automated system and
process researcher applications manually. Researchers fill-out NARA form 14003 and
are then issued a paper cardstock researcher card containing a name only; with no photo
on it. Data bases are manually populated with researcher data by NR and NL personnel
entering the data from the paper application completed by the researcher. Verification of
researcher privileges must be assessed by research room personnel and the researcher
must repeat the application process if he or she wants access to either Archives I or
Archives II research rooms.

Although we found NARA personnel processing and managing the researcher card
program have generally adhered to internal directives, we believe an investment in a fully
automated, integrated technology system (as used by Archives I and Archives II
described above) would greatly improve NARA’s ability to protect its assets and provide
better customer service to the researchers.




                                            Page 4
                         National Archives and Records Administration
                                                                              OIG Audit Report No. 08-07


An investment in an automated system would: (1) centralize a database of all registered
researchers which could be used for investigative purposes; (2) produce photo
identification researcher cards reducing the risk that stolen, lost or counterfeited cards
could be used and would store a photo of each researcher using NARA materials; (3)
communicate names and photos of banned researchers to all NARA facilities in a timely
and reliable manner; and (4) aid the proposed Holdings Management System (HMS)
circulation management function.

Centralized Database: Currently, NARA has several databases for storing researcher
identification data. Archives I and Archives II share an automated researcher registration
database as was described above. NR has centralized its researcher database at NARA’s
Fort Worth location. Typically NR facilities send the researcher application (by FedEx
mail) to Fort Worth where it is manually entered to a database 2 . NL has not centralized
its researcher database, thus, most Presidential Libraries have developed their own
researcher database. Several libraries reported using a simple electronic spreadsheet
format to record researcher data and the Ford Presidential Library stated that they do not
maintain a researcher database at all. Both NR and NL stated that to avoid securing
sensitive, personal identification information their researcher databases do not contain the
researcher’s address and driver’s license data 3 .

NARA’s ability to effectively identify and/or investigate potential theft of archival
documents may be hindered as critical information is not housed in a central location. In
the event a researcher is suspected of theft, a centralized database could provide essential
information such as (1) photo identification of the suspected researcher; (2) dates and
times of the researcher’s visits; (3) the researcher’s address; and (4) all NARA locations
visited. Additionally, a centralized data base can be used to determine if an individual
alleged or found to have stolen from other institutions has accessed records at one or
more NARA facilities.

A centralized database can be monitored more efficiently for adherence to management
controls such as obtaining a researcher’s driver’s license number, current home address,
temporary lodging address and non-issuance of temporary researcher passes. Finally,
internal control procedures to ensure personal data is safeguarded can be more effectively
managed with one database rather than several.

Photo for the Researcher Identification Card: Most NL and NR research room personnel
report researchers are not required to produce photo identification in addition to the
researcher card to access archival documents. Only Archives I and Archives II have the
ability to produce a researcher card containing a photo. All other NARA locations issue
paper cardstock researcher cards without the photograph of the researcher. This poses an
increased security risk of counterfeited or stolen/lost researcher cards being used by
persons for inappropriate purposes.


2
 As of October 1, 2007, NR’s researcher database has relocated to Archives II in College Park.
3
 Most field offices report that their researcher database contains: researcher’s name, researcher card
number, date card issued, and research topic.

                                                 Page 5
                              National Archives and Records Administration
                                                                        OIG Audit Report No. 08-07


In June 1995, Daniel Spiegelman was arrested for stealing $1.3 million worth of rare
books and manuscripts from Columbia University. In his possession were several
Columbia identification cards issued under a variety of names. Additionally, Gilbert
Bland (famed thief) was noted for using several different aliases to access libraries.
Maintaining a centralized database of researcher information including a photo will aid
the security process by (1) impeding a potential thief from obtaining additional cards with
phony names; (2) allowing those monitoring the database an opportunity to observe
persons applying for researcher cards with different names; and (3) aid any after the fact
investigation by providing a photograph of the researcher being investigated.

Banned Researchers: Banned researchers from one NARA facility are, according to
NARA regulations codified in the Code of Federal Regulations, Title 36, Section
1254.48, to be banned from all NARA facilities. However, the current method for
communicating the name of a banned researcher between NARA locations could be
improved. GAO Standards for Internal Control states, “for an entity to run and control its
operations, it must have relevant, reliable, and timely communications relating to internal
as well as external events.” An integrated, technology system can provide automated,
reliable and timely communication concerning banned researchers.

The current practice used by the Office of Records Services—Washington, DC (NW) for
notifying all NARA research facilities of a banned researcher’s name and circulating a
corresponding photograph (if available) is via e-mail. Each facility must then distribute
this information to research room personnel and security guard checkpoints (if one is in
place at the respective facility). In contrast, an automated system used by all NARA
facilities would only require one person to update the banned researcher’s data file.
Automatically, any attempt by the researcher to enter a NARA facility would result in a
“red light”—do not admit. A scanned researcher card provides greater security because it
can be linked to a central database and does not require security or research room
personnel to manually check a list of names—a listing that may or may not be current.

Circulation Management: The current manual system of processing researcher
applications and researcher identification cards is obsolete as business practices at NARA
are moving forward with advanced technology. Senior NARA personnel associated with
the Holdings Management System (HMS) envision that circulation of archival records
will be automated. This automated process will identify which archival records are
pulled and what user (researcher or NARA customer) has the documents. To accomplish
this efficiently, the researcher card would be bar coded.

According to the HMS project manager, this would require that NL and NR incorporate
the automated system already in use at Archives I and Archives II, or that another system
be developed that all NARA facilities could use. The Full Proposal for HMS does not
include an automated researcher identification process into the system design phase.
Senior NARA personnel associated with the HMS proposal stated they were aware NL
and NR currently lack necessary equipment and software to accommodate the circulation
management component as envisioned, however, either the Archives I/Archives II
registration system would be adopted or another similar system would be added as the


                                            Page 6
                         National Archives and Records Administration
                                                                         OIG Audit Report No. 08-07


HMS project is developed. At this point in time no decisions have been made by
management.

Customer Service: Use of an integrated system will facilitate better customer service by
(1) streamlining the researcher application process and (2) providing uniformity of
information to the researchers concerning research room rules. Most NARA research
locations require the researcher to complete an application for their researcher files even
if the researcher has a NARA researcher card from another NARA research facility (with
the exception of Archives I and Archives II—which have an integrated, compatible
system). Thus, a researcher needing reference material from several NARA locations
will repeat the application process.

In addition to different application procedures, the auditor identified a lack of uniformity
on the part of NARA in dispensing research room policy and procedures to prospective
researchers. For example, at Archives I and Archives II prospective researchers receive
an automated, standardized orientation as to research room conduct and requirements.
Conversely at most field locations prospective researchers receive either verbal briefings
from NARA staff or are instructed to read informational content. Senior presidential
library staff also indicated presentation of research room rules verbally (in a one on one
briefing) was a more effective approach. However, a standardized approach throughout
NARA for defining expectations for researchers would be an optimal approach ensuring
complete information is presented.

Recommendation #1:

The Archivist should evaluate the enhanced security and customer service benefits that
would accrue to NARA and consider implementing an automated integrated researcher
registration system at all NARA facilities with research rooms.

Management Comment(s):

Management concurred with the recommendation. NR additionally commented “that a
NARA-wide researcher registration system would introduce necessary efficiencies that
will enhance document security and privacy protection.”



Finding II: Uniform Internal Operating Procedures for Revoking Researcher
Privileges Needs to be Established

NW, NR and NL do not have a complete, uniform set of detailed written guidance for
revoking researcher privileges and notifying all NARA research rooms of banned
researchers. Because banning a researcher from a NARA facility is an infrequent event,
management has not recognized the need for establishing detailed internal operating
procedures on the steps involved to revoke researcher privileges for use by all NARA
research room personnel. GAO Standards for Internal Controls in the Federal


                                             Page 7
                          National Archives and Records Administration
                                                                              OIG Audit Report No. 08-07


Government require federal managers to develop detailed policies, procedures, and
practices to fit their agency’s operations and provide reliable and timely communications
throughout the agency of actions taken. As a result, information specific to a banned
researcher may not be disseminated NARA-wide.

Code of Federal Regulations, Title 36, Section 1254.48 addresses rules of conduct which
may result in suspending researcher privileges. Section 1254.48 states that NARA: (1)
will notify the researcher in writing within three days of the planned banning and state
the reason; (2) may deny researcher privileges for up to 180 days; and (3) will ban the
researcher from all NARA facilities. However, internal NARA supplemental written
procedures detailing the steps of “how” to properly ban a researcher, notify all NARA
research rooms, and establish guidelines for penalties associated with certain behaviors
have not been developed.

Although revoking researcher privileges occurs infrequently, there have been incidents
illustrating the need for more detailed written guidance. The first incident occurred at the
Ronald Reagan Presidential Library in 2002 when a researcher was banned for behaving
in a threatening manner. The information derived from files maintained by the Reagan
Presidential Library include email and other internal NARA correspondence addressed to
Presidential Library Directors, Archives II personnel including OIG and General
Counsel, and the banned researcher. The file contained a letter addressed to the banned
researcher stating that he was no longer permitted in any of the NARA’s Presidential
library facilities, however, the banned researcher’s name was neither entered into the
automated researcher database (which would flag and nullify an attempt to receive a
researcher card at AI or AII) nor communicated to NARA field locations which do not
have access to the localized database in the Washington D.C. area.

A second incident involves a researcher at NARA’s Northeast Region New York City
(NRAN). At time of this audit, NRAN was contemplating banning a problem
researcher. However, the Director of Archival Operations stated there was not sufficient
written instruction on how to ban a researcher 4 and had contacted Office of Records
Services Customer Services Division (NWCC) for guidance. NWCC and NRAN have
recognized additional banning procedures need to be developed and are currently
working to establish uniform, detailed internal operating procedures for banning
researchers.

Recommendation #2:

The Archivist should ensure that NARA-wide internal operating procedures are
developed for revoking researcher privileges and for notifying all NARA facilities in a
timely manner.



4
  For example no specific penalty guide for first, second or third offenses had been developed. If a decision
is made to ban a researcher no guidance exist by infraction for the length of time the researcher should be
banned. Finally no guidance exist for what should be put in the letter banning the researcher.

                                                 Page 8
                              National Archives and Records Administration
                                                                        OIG Audit Report No. 08-07




Management Comment(s):

Management concurred with the recommendation.


Finding III: Researcher Database not Routinely Monitored

The researcher database for Archives I and Archives II is not monitored on a routine
basis to ensure management controls such as recording a researcher’s driver’s license
number and current home address or temporary lodging address is being properly
implemented. This condition exists because management has not ensured periodic
review of the researcher database. GAO Standards for Internal Control in the Federal
Government identify periodic monitoring as an essential component of good internal
controls. Without periodic monitoring, the researcher database could contain inaccurate
and incomplete researcher data. This condition could hamper OIG investigative analysis
as warranted.

On average, Archives I and Archives II process nearly 10,500 researcher cards a year. As
part of the audit fieldwork, the Archives I and Archives II researcher database was
reviewed from August 1, 2006 through July 2007. This review revealed fifty nine
instances where incomplete researcher applications were processed:

   1. Fifteen researcher registration forms lacked identification data. These researcher
      registration forms did not indicate the type of identification card presented and did
      not record the appropriate identification number (e.g. driver’s license number).

       Three of the fifteen registration forms lacking identification data were due to
       system error. For unknown reasons, the registration software will overwrite a
       previously issued researcher card and eliminate the data for the identification
       field.

       The remaining twelve (of the fifteen) were instances where the archival technician
       processing the researcher application did not record the identification (e.g.
       driver’s license) data properly to the database. Currently, the software used to
       process researcher cards does not have the ability for defining “required fields”
       making it possible for a NARA technician processing researcher applications to
       bypass this management control.

       Only three of the researcher identification cards identified above were marked
       inactive. Marking a researcher card inactive when certain required data is lost or
       was never obtained allows for corrective action. The next time the researcher
       attempts to use his/her card there will be an inactive status requiring the NARA
       technician to review the database file and make corrections prior to entrance by
       the researcher. In this case, the archivist technician would obtain the missing
       identification data and reactivate the researcher card.


                                            Page 9
                         National Archives and Records Administration
                                                                        OIG Audit Report No. 08-07




   2. Thirty six researchers did not have their photo recorded. Twenty three of the
      thirty six were never printed most likely because the technician determined that
      the researcher did not need a researcher card and terminated the application
      process. Thirteen of the thirty six were due to a network connection problem.
      NWCC has reported that the photo was taken of the researcher but prior to the
      transfer of the photo to the database, the photo was lost.

   3. Six researcher cards did not have an expiration date. Without a recorded
      expiration date a renewal application would not be completed according to NARA
      policy. NARA 36 CFR states that researcher cards be valid for only one year.

   4. Two temporary one day passes were issued. A mother and son were issued
      temporary one day passes; it was noted in the data file that neither had proper
      identification. NARA Interim Guidance 1600-4 does not support temporary
      passes due to lack of proper identification and any exception made must be
      approved by a research room supervisor. Approval or explanation for allowing
      these temporary passes was not noted in the data base.

Although there has been monitoring of the database, it is not done on a regular basis and
a log documenting corrective action has not been kept. Periodic monitoring of the
researcher database would ensure the researcher application process is being completed
according to NARA policy and that all control procedures are properly implemented and
deviations are analyzed and corrected.

Recommendation #3

The Assistant Archivist of NW should require periodic monitoring of the Archives I and
Archives II database. A log recording the date of the review and corrective action taken
should be maintained.

Management Comment(s):

Management concurred with the recommendation.




                                           Page 10
                         National Archives and Records Administration
